Office of Inspector General




Background
Investigations

      March 28, 2008
 Inspection Report No. 434
                                                                                                          Page 2



                                    Table of Contents

Executive Summary ................................................................................................... 2

Objectives and Scope ................................................................................................... 3

Background.................................................................................................................. 4

Inspection Results ....................................................................................................... 5

         Inadequate Operating Procedures ................................................................... 6
         Lack of an Effective Case Management Tracking System ............................. 7
         Insufficient Resources to Accommodate the Workload ................................... 9
         Inadequate Workspace and Improper Storage of Files................................. 10
         Ineffective Use of an E-Gov Initiative- e-QIP................................................ 10
         Pilot Interim Clearance Process .................................................................... 11
         Implementation Plan...................................................................................... 14
         OMB Reporting ............................................................................................... 15

Other Matter ............................................................................................................. 16

Appendices
     1. Management’s Comments. ........................................................................ 18
     2. List of Recommendations .......................................................................... 21




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                                 MARCH 28, 2008
INSPECTION 434
                                                                                                Page 3




        BACKGROUND
       INVESTIGATIONS
____________________________
                          EXECUTIVE SUMMARY
The Office of Inspector General of the Securities and Exchange Commission
conducts regular audits and inspections of Agency operations to promote the
effectiveness, integrity, and efficiency of the Commission. We conducted an
inspection of the Commission’s process for initiating background
investigations and making suitability determinations for employees and
contractors.
We found that significant organizational issues are preventing the
Commission from having an effective Personnel Security/Suitability Program
(the Program). We recommend that the Commission (1) develop
comprehensive operating procedures, (2) create an information system to track
work processes, (3) evaluate and restructure staff resources, and (4) acquire
appropriate work and storage space for the Program.
We also found that the Commission did not comply with key requirements of
Homeland Security Presidential Directive (HSPD) 12, Policy for a Common
Identification Standard for Federal Employees and Contractors, Federal
Information Processing Standards (FIPS) Publication 201-1, and OMB
guidance related to:
    •    Reviewing initial results from Office of Personnel Management (OPM)
         investigations prior to granting interim clearances permitting
         individuals unescorted access to Commission facilities.
    •    Conducting background investigations on existing contractors,
         employees and others (e.g. temporary employees, student interns) that
         have worked at the Commission less than 15 years and do not have the
         minimum required type of investigation.
    •    Reporting reliable data to the Office of Management and Budget (OMB)
         regarding the Commission’s progress in implementing HSPD 12.
Our report includes specific recommendations of the immediate actions that
the Commission should take to correct the deficiencies we identified, and to
notify OMB of the deficiencies, as appropriate.


____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                                Page 4


Lastly, we identified a matter related to the Commission’s issuance of HSPD
12 compliant identity cards that we believe warrants quick resolution by
Commission management.
Many of our findings and recommendations were discussed with Commission
management during the course of our review. In some instances, actions are
already being taken to address the deficiencies. As a result, some of our
recommendations refer to work in progress, while others refer to tasks that
still need to be addressed.
The Office of Human Resources concurred with all recommendations in the
report. Their formal written response is included as Appendix 1.


                      OBJECTIVES AND SCOPE
We initiated an inspection of the Program based on complaints from
Commission officials regarding significant delays associated with the
processing of background investigations for employees and contractors. Our
original objectives were to determine if the Office of Human Resources (OHR)
(1) promptly initiated investigations for contractors and staff, (2) initiated the
appropriate type of investigation, and (3) maintained adequate systems for
tracking the progress of investigations and OPM results.
The scope of our review, however, was limited by OHR’s delays and inability
to produce operational data, lack of reliable information systems or other
methods to track workflow data, inadequate internal policies and procedures,
and departure of key personnel associated with the Program during the
course of our review. Consequently, our review and report focus on
significant organizational issues affecting the overall efficiency and
effectiveness of the Program that we believe warrant quick management
action. We plan to do a follow-up review of this Program in the near future.
We interviewed applicable Commission staff in the Office of Information
Technology (OIT), OHR, and Office of Administrative Services (OAS), as well
as officials from OPM; reviewed applicable internal operating procedures,
relevant Federal requirements and regulations, and OPM guidance; reviewed
available OHR operational data for the Program; and reviewed available
documentation for a judgmental sample of interim clearances granted under
a newly implemented pilot program. We focused on operational processes
during Fiscal Year 2007. We did not review the Office of Physical Security’s
compliance with applicable requirements for issuing new identity credentials
to employees and contractors under Federal Information Processing
Standards (FIPS) Publication 201-1 or OIT’s procedures for granting these
individuals access to Commission information systems.


____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                                Page 5


Fieldwork was performed from October 2007 to February 2008 in accordance
with Quality Standards for Inspections, January 2005 edition, issued by the
President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.

                                   BACKGROUND
The Commission is required to initiate background investigations (if a
satisfactory investigation is not already on file), evaluate results, and issue
identity credentials to its employees, contractors and other applicable
individuals (e.g., temporary employees, student interns) who require long-
term access to Commission controlled facilities and/or information systems.
The Commission also requires that employees and contractors undergo a
credit check.
The Office of Human Resources’ Personnel Security/Suitability Branch (PSB)
administers the background investigation process and makes decisions
regarding an individual’s suitability for employment. PSB is responsible for
determining the type of background investigation that should be conducted,
arranging completion of investigations by OPM, reviewing and evaluating
investigation results, maintaining personnel security files, and issuing
guidance regarding the Program. OPM (or an OPM contractor) is responsible
for performing the background investigation.
OIT, in conjunction with OHR, developed operating procedures for the
personnel security program in July 2006 (OP 24-04.03.02.01- Background
Investigations). These operating procedures are issued pursuant to
applicable Federal regulations (Title 5, Code of Federal Regulations, Part 731
and 736, Executive Order 10450, Security Requirements for Government
Employment, Homeland Security Presidential Directive 12, Policy for a
Common Identification Standard for Federal Employees and Contractors
(HSPD 12), FIPS 201-1 and various OPM guidance).
HSPD 12, issued by President Bush on August 27, 2004, cited the wide
variations in the quality and security of the forms of identification used to
gain access to federal and other facilities, and called for the development of a
mandatory standard for secure and reliable forms of identification to be used
throughout the Federal government. The directive identified the
government’s requirements for a common government-wide identification
system that would enhance security, increase government efficiency, reduce
identity fraud, and protect personal privacy. FIPS 201-1, approved by the
Department of Commerce on February 25, 2005, established a government-
wide personal identity verification (PIV) system. The system is based on the
use of smart cards, which will be issued by all Federal government
departments and agencies to their employees and contractors who require
access to federal facilities and information.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                                      Page 6


FIPS 201 was issued in two parts to allow for a smooth migration to a secure,
reliable personal identification process. Part 1 of FIPS 201-1 (PIV 1)
describes the minimum requirements for a Federal personal identification
system, including the process to prove an individual’s identity. Agencies may
issue credentials only to applicants whose identity has been established and
who have had a background investigation. Applicants for credentials must at
a minimum be examined through an OPM background investigation process,
the National Agency Check with Written Inquiries (NACI), 1 to establish
assurance of identity. The initial phase of the NACI, an FBI National
Criminal History Fingerprint Check, must be completed before an initial
identity card is issued. When the full NACI is completed, the agency reviews
the results and takes appropriate action if negative results are received. By
October 27, 2005, agencies were required to have procedures in place for
verifying employees’ identities to meet the requirements of PIV I.
Accordingly, an agency may continue to issue its current employee
identification; however, the controls and procedures surrounding the issuance
of official government identification must be in compliance with PIV I. FIPS
201-1 created a number of new security criteria, and included for the first
time, requirements for certain previously exempt contractors to be subject to
the background investigation clearance process.

Part 2 of FIPS 201-1 (PIV II) describes the minimum requirements of an
identification card that allows use of smart cards by Federal departments
and agencies and was required to be implemented by agencies starting in
October 2006.

The OIG has reviewed the Commission’s background investigation processes
for employees and contractors in prior audits (Audit Nos. 339 and 340 issued
August 13, 2001) and found that significant improvements were needed in
this area.


                           INSPECTION RESULTS
Our inspection found that the Program requires significant improvement in
several areas, including (1) development of detailed operating procedures, (2)
creation of an effective case management tracking system, (3) evaluation and
restructuring of staff resources, (4) adequate workspace and storage of
personnel security files, and (5) compliance with various aspects of HSPD 12
and FIPS 201-1. It is imperative that OHR take prompt action to remedy
these deficiencies to ensure the effective and efficient operation of the

1
  The National Agency Checks are the Security/Suitability Investigations Index (SII), Defense Clearance and
Investigation Index (DCII), FBI Name Check, and FBI National Criminal History Check. The National Agency
Check with Written Inquiries includes all of the National Agency Checks plus searches of records covering specific
areas of an individual’s background during the past five years.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                              MARCH 28, 2008
INSPECTION 434
                                                                                                Page 7


Program. Delays in processing background investigations and the lack of
adherence to relevant Federal requirements negatively impact the
recruitment of staff and other temporary personnel, efficient use of
contractors, and security of federally controlled facilities and Commission
information systems.

ORGANIZATIONAL ISSUES

Inadequate Operating Procedures

Our inspection found that the Commission lacks comprehensive operating
procedures for initiating, evaluating, and documenting background
investigations for employees and contractors. The current operating
procedures (OP 24-04.03.02.01-Background Investigations) consist primarily
of a list of steps associated with the background investigation process (e.g., a
determination of the appropriate security paperwork, receipt of OPM results
and evaluation of any issues, final determination of an individual’s
suitability 2 for employment) and a list of relevant guidance.

The operating procedures do not clarify, define, and establish specific
personnel security processes regarding making a determination of position
sensitivity 3 , determining the minimum background investigation for different
position sensitivity levels, making preliminary and final suitability
determinations, reviewing and adjudicating OPM investigation results, and
adhering to due process procedures for unfavorable suitability
determinations.

We believe the procedures at a minimum should (1) provide detailed
information regarding each step in the background investigation process; (2)
reference applicable guidance (e.g., OPM guidance, Federal requirements and
regulations) and state what processes will be employed to ensure adherence
to the guidance; (3) include target milestones for completion of various
processes; (4) state what documentation will be maintained to support
decisions made; and (5) incorporate management review of significant
decisions as deemed appropriate.

Developing comprehensive operating procedures will help ensure that
personnel security activities are carried out consistently; in accordance with
applicable Federal requirements, regulations and OPM guidance; and in a
cost effective manner. For example, we found that PSB often requests that


2
  General fitness or eligibility for Federal employment.
3
  The degree of risk and level of relative importance assigned to a specific position.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                                Page 8


OPM perform a minimum background investigation (MBI) 4 for contractors
although FIPS 201-1 only requires a NACI or equivalent. A standard MBI
cost approximately $450 more than the basic NACI and takes longer to
complete. Based on the estimated 416 existing contractors as of December
2007 that require a background investigation (per OHR’s reported numbers
to OMB), changing the type of investigation required could result in potential
cost savings. A PSB staff member stated that she usually requests an MBI
because it is a more thorough investigation, consisting of in-person
interviews, rather than just written inquiries and many contractors have
access to IT systems. While this rationale has merit, OHR as a whole needs
to develop a process/criteria it will use to determine when to request an MBI
instead of a NACI for contractors.

The Center for Organizational Excellence, a consultant hired by OHR to
review OHR workflow processes, reported in May 2007 that a lack of
documented, understood, and defensible personal security workflow processes
was a root cause for problems associated with staff acquisition at the
Commission. There is no evidence that management responsible for direct
oversight of PSB have taken action to develop new operating procedures to
address this issue.

Recommendation A

We recommend that OHR develop detailed operating procedures (or a
personnel security/suitability handbook that is maintained internally) for the
Program and circulate these procedures for clearance by June 30, 2008.

Lack of an Effective Case Management Tracking System

PSB does not have an effective information system to manage its workload of
background investigation cases. Prior to implementation of the interim
clearance process, PSB recorded background investigation data on various
Excel spreadsheets. Two spreadsheets were used to record background
investigation data for contractors and employees that was useful to PSB
internally (such as a social security number, position sensitivity level, type of
investigation, date paperwork sent to OPM, date investigation initiated and
completed, contractor name and position description information.)

Other spreadsheets were used to report data to other offices within the
Commission. This included a spreadsheet accessible to human resource
specialists to track the status of the security paperwork for prospective

4
  This investigation requires a NACI, a credit record search, a face-to-face personal interview between the
investigator and the subject, and telephone inquiries to selected employers.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                                Page 9


employees. Also, PSB developed a spreadsheet to track similar information
for summer interns. Our review has identified the following concerns with
the tracking system based on discussions with a PSB staff member and our
review of available data:

•        OHR is not able to provide outside parties timely access to information
         in the tracking system. Although the OIG made numerous requests
         over a period of a couple of months and offered to assist in accessing
         the data, OHR was not able to provide the data in a timely manner.
         Additionally, although PSB represented that it had two tracking
         spreadsheets (one for contractors and one for employees) to track
         internal workload data, OHR was unable to provide access to the
         tracking spreadsheet for regular employees.

•        The tracking spreadsheets were maintained and updated by one of the
         PSB staff members, but were not readily accessible to other staff.

•        Data in the spreadsheets had not always been updated and maintained
         and one of the spreadsheets reviewed appeared to have missing data.

•        The spreadsheets did not adequately track all workflow processes
         within PSB (e.g., when PSB was notified of a prospective employee or
         contractor, date of initial and follow-up contact with an individual
         regarding security paperwork or receipt of security paperwork.)

•        There was no tracking spreadsheet to provide data to applicable
         parties regarding the status of background investigation for
         contractors, although there was one for employees.

During the course of our review, OHR introduced another spreadsheet to
track background investigation data related to a pilot interim clearance
process. While we believe this spreadsheet more effectively tracks workflow
data regarding front-end processes performed by PSB (prior to initiation of a
background investigation), the spreadsheet lacked other information
regarding the type of investigation initiated, receipt and review of OPM
investigation results, (such as the advance fingerprint report, advance
national agency check report, and final OPM results) and resolution of any
issues found from OPM’s investigation. Additionally, per discussion with a
PSB staff member, the new spreadsheet does not contain some data from the
old tracking spreadsheets that was useful to manage the Program from an
internal perspective.



____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 10


Recommendation B

We recommend that OHR develop (with the assistance of OIT) or acquire a
case management tracking system with the capability to track and document
internal workflow processes, produce reports useful for managing the
program, and report data to outside parties as necessary. OHR should
specifically dedicate resources to this effort.

Insufficient Resources to Accommodate the Workload

OHR needs to evaluate and restructure staff resources to better accommodate
the background investigation workload. As of January 2008, PSB was staffed
with two permanent employees (an experienced staff person and one junior
staff person). The junior staff person resigned from the Commission in
January 2008 and a replacement from within the Commission was identified.
The two permanent employees reported to a Branch Chief who managed
other personnel functions. However, the Branch Chief retired in February
2008 and that position is now vacant. In addition, the Associate Director that
this Branch Chief reported to also left the Commission in February 2008. In
the past, PSB has also utilized the resources of temporary, contractor, and
administrative staff to help meet its workload demands.

We found that only one of the two personnel security specialists is actually
trained to perform all personnel security functions including such tasks as
evaluating OPM background investigation results. This individual also trains
any new permanent or temporary personnel assigned to the branch. While
staff resources within PSB have not increased, the workload of PSB has
increased substantially in recent years due to increases in the size of the
Commission and new requirements such as HSPD12, which requires all new
contractors to be subject to background investigations as well as existing
employees and contractors without the minimum required background
investigation.

Admittedly, PSB has focused its limited resources on meeting the demands
for new clearance requests (i.e., getting the security paperwork together and
to OPM for the investigation to be initiated). Consequently, not enough time
is being devoted to other PSB essential functions such as receipt and timely
review of investigation results, maintaining an updated tracking system,
communicating changes in operating procedures to customers within the
Commission, reviewing reassignments within the Commission to determine if
a individual requires a new investigation, initiating reinvestigations when
required, ensuring that applicable requirements (such as HSPD12) are met,
and attending training on current developments in the personnel
security/suitability area.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 11


Recommendation C

OHR should evaluate and restructure staff resources assigned to PSB to
ensure that all essential functions are performed in an effective and timely
manner. OHR should also recruit additional skilled staff and ensure that all
staff are adequately trained to perform their jobs successfully. Further, OHR
should consider recruiting additional temporary staff to assist with the
backlog of background investigations.

Inadequate Workspace and Improper Storage of Files

We performed a walkthrough of PSB’s office space including storage and
filing capacity. We found that PSB does not have a secured central
location/file room for personnel security files and that personnel security files
and security paperwork were contained in numerous locations including
various file cabinets that cannot be locked, open cubicles, and a personnel
specialist’s office. Additionally, we found PSB’s workspace in general to be
unsuitable for the type of work they perform (e.g., reviewing and discussing
personnel security information and meeting with employees and contractors
regarding their security paperwork.) The workspace is centrally located
within OHR, consists of one office and some cubicles and is physically
accessible to all contractors and employees that have access to the building.

Recommendation D

OHR should obtain secure storage for personnel security files and a
workspace conducive for personnel security type work.

Ineffective Use of an E-Gov Initiative – e-QIP

We found that PSB is not effectively utilizing the Electronic Questionnaires
for Investigations Processing system (e-QIP). The secure web-based system
is part of an e-government initiative sponsored by OPM and was made
available for agency use in 2004. E-QIP allows applicants to electronically
enter, update, and transmit their personal investigative data over a secure
Internet connection to their employing agency for review and approval. The
data can then be reviewed and transmitted by agencies to OPM for timely
initiation of a background investigation. The Commission received training
on e-QIP in September 2007 and began implementation shortly thereafter.

We found that although PSB required that applicants utilize the system to
complete, certify, and release their security questionnaire form to PSB (e.g.,
SF85P), PSB was not always electronically uploading and submitting the e-
QIP signature form (a form manually signed by the applicant to certify that
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 12


the applicants answers on the security questionnaire and related documents
are true, complete, and accurate) to OPM. PSB was also not electronically
uploading to e-QIP other documents that are typically included in the
security package sent to OPM such as the credit release form, optional form
306, and resume. PSB would submit the aforementioned documents along
with the paper fingerprint card to OPM via Fed Ex, or other mechanism.

Per discussions with an OPM official, the Commission is in violation of its
memorandum of understanding with OPM regarding the use of e-QIP by not
uploading and electronically transmitting security packages (with the
exception of the paper fingerprint cards) to OPM. Additionally, the
Commission is not effectively utilizing this e-government initiative to help
speed up investigation processing. It should also be noted that once the
Commission begins its new credentialing system (issuance of smart cards),
fingerprinting will be done electronically, therefore, eliminating the need to
submit paper copies of any security paperwork (assuming e-QIP is properly
utilized), which will reduce costs.


Recommendation E

OHR should ensure that all personnel security specialists are properly
trained in the use of e-QIP and are effectively utilizing e-QIP by uploading
and transmitting all security documents (with the exception of paper
fingerprint cards) to OPM.


Pilot Interim Clearance Process Not in Compliance with HSPD-12

We found that the Commission had not complied with key requirements of
HSPD 12 and FIPS 201-1 regarding (1) initiation of background
investigations by OPM and receipt of an acceptable FBI fingerprint check
prior to granting employees and contractors unescorted access to Commission
facilities, (2) compliance with key milestone requirements regarding
completion and/or verification of minimum background investigations for
existing employees and contractors that have been with the Commission 15
years or less, and (3) reporting of key milestone data to OMB regarding
background investigations for Commission contractors. As a result, the
Commission has violated Federal requirements and should take immediate
corrective action including notifying appropriate parties (such as OMB) of the
violations, as applicable.



____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 13


Pilot Interim Clearance Process
FIPS 201-1 requires that agencies initiate a NACI or other appropriate type
of investigation prior to initial credential issuance for new employees,
contractors, and other applicable individuals. Agencies are prohibited from
reinvestigating individuals transferring from another department or agency
provided certain criteria are met. FIPS 201-1 states that at a minimum, the
FBI National Criminal History Check (fingerprint check) shall be completed
before initial credential issuance. FIPS 201-1 further requires that identity
credentials issued to individuals without a completed NACI or equivalent
must be electronically distinguishable from identity credentials issued to
individuals with a completed investigation.
In October 2007, OHR began a 90-day pilot interim clearance process. This
process was put into place due to complaints by Commission officials of
significant delays with clearances. Under the new process, OHR granted
interim clearances based upon a review of an individual’s relevant
background investigation documents prior to their submission to OPM for
completion of the full background investigation. The targeted time period to
issue an interim clearance was five days. The interim clearance was to
remain in effect until the full background investigation was completed by
OPM and PSB had reviewed and evaluated any issues. New employees were
informed that their continued employment status was contingent upon a
satisfactory background investigation. An interim clearance permitted
contractors and new employees to begin work with the Commission, get an
identification badge and gain unescorted access to Commission facilities
while the full background investigation was ongoing.
The OIG picked a judgmental sample of 15 out of approximately 87
individuals (12 contractors and 3 employees) that received interim clearances
under the 90-day pilot program as of January 14, 2008. We then obtained
and reviewed the relevant PSB files 5 to ensure the process complied with
applicable HSPD 12 guidance. We identified the following issues/concerns:
         •   OHR had only recently begun to provide interim clearances
             although Federal guidelines had given agencies this ability since
             October 2005.
         •   Ten individuals were cleared by PSB to receive identification
             badges (an email was sent to the Office of Physical Security that
             the individual was cleared for an ID) although OPM had not yet
             initiated their background investigations and the FBI fingerprint
             results had not been obtained and reviewed. This process is in
             direct violation of FIP 201-1 and the Commission’s own operating
             procedures for background investigations. For one of the ten

5
  PSB was unable to readily locate the personnel security files for two of the individuals in our sample.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 14


             individuals, OPM notified the Commission that it found the
             individual’s security paperwork unacceptable after the individual
             was cleared and received their badge. Additionally, although notice
             of the unacceptable paperwork was received from OPM in
             November 2007, there was no documentation in the file that PSB
             had followed up as of February 2008 to determine why the
             paperwork was unacceptable. It should also be noted that FBI
             fingerprint results subsequently received for two of the ten
             individuals in the sample were positive (indicating that an FBI
             record was found). Notes in PSB’s personnel security files indicate
             the records were reviewed and found to be “ok”.
         •   PSB files for two individuals showed that OPM found and reported
             to PSB in November 2007 issues related to the individuals’ credit.
             As of February 2008, PSB’s files contained notations showing that
             these issues still needed to be followed up on.
         •   One individual in our sample was cleared for an interim clearance;
             however, PSB could not provide proof that they notified the Office
             of Physical Security that the individual was cleared for a badge.
             The Office of Physical Security also did not have any record of an
             email from PSB. Additionally, we found that PSB does not routinely
             notify the Contractor Officer Technical Representative (COTR) or
             an Administrative Officer when a contractor is cleared for an ID
             (simultaneous with their notification to the Office of Physical
             Security). As a result, a contractor may be awaiting an ID and
             would not be aware they have been cleared for one.
         •   PSB did not distinguish between an interim and final clearance
             when they notified the Office of Physical Security via email that
             individuals in our sample were cleared for an ID. This distinction
             will become particularly important once the Commission starts to
             issue the new HSPD 12 smart card badges. FIPS 201-1, Part 2,
             requires that identity credentials issued to individuals without a
             completed NACI, or equivalent must be electronically
             distinguishable from identity credentials issued to individuals with
             a completed investigation.

Recommendation F

PSB should revise its current procedures to ensure: (1) interim clearances are
granted after an OPM investigation is initiated and the FBI fingerprint
results are received, reviewed, and determined to be acceptable; (2) all OPM
investigation results (preliminary and final) are promptly reviewed, issues
timely resolved, and appropriate action taken to revoke interim clearances,

____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 15


as appropriate; and (3) the Office of Physical Security is promptly notified of
all interim clearances, the notification states that an identification badge
should be issued based on an interim clearance, and the applicable COTR
and/or Administrative contact is copied.

Implementation Plan
HSPD 12 implementation instructions published by OMB in August 2005
(OMB Memorandum 05-24) required that agencies develop a plan and begin
the required background investigations, a NACI or equivalent, for all current
employees, contractors, and other applicable individuals who do not have an
initiated or completed investigation on record. This effort was required to be
started by October 27, 2005.
For current contractors and employees who have been with the Commission
for less than 15 years, the requirement was to be completed by October 27,
2007. For employees who have been with the Commission over 15 years, a
new investigation may be delayed, commensurate with risk, but must be
completed no later than October 27, 2008.
We found that the Office of Human Resources does not have a formal plan of
how it intends to meet this requirement. Additionally, due to limited
resources, OHR has not focused its efforts on meeting this requirement.
Consequently, the Commission has no way of knowing where it stands with
regard to meeting the required deadlines. The Commission reported to OMB
in December 2007 (as part of its required quarterly HSPD-12 reporting
requirements) that 1,016 contractors and employees still need a NACI or
equivalent background investigation.

Until OHR identifies what existing employees and contractors still need a
NACI and takes action to get the required investigations completed, the
Office of Physical Security will not be able to issue new identity credentials
(smart cards) to these individuals by the October 27, 2008 credentialing
deadline established by OMB Memorandum 07-06, issued January 11, 2007.

Recommendation G

OHR should develop milestones and a methodology for completing the
minimum required background investigations for existing contractors and
employees and devote appropriate resources to the effort. OHR should also
communicate those milestones to the Office of Physical Security.




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 16


OMB Reporting
We found that PSB could not readily provide support for HSPD 12
background investigation data reported by the Commission. In January
2007, in an effort to monitor agencies implementation of HSPD-12, OMB
issued memoranda requiring agencies to post to their Federal agency public
website certain data related to the status of background investigations for
current employees and contractors.
This information was collected from OHR by OIT and publicly posted on the
Commission’s website along with other HSPD 12 data. For the last three
quarters, the Commission reported the following background investigation
data.
           Table 1. Background Investigations Reported
            Total Number of              Total number of             Reporting date
            Employees Requiring          contractors requiring
            a NACI (or at least          a NACI
            equivalent) that have
            not previously
            undergone a
            background
            investigation
            950                          457                         June 2007
            610                          502                         September 2007
            610                          416                         December 2007



The OIG inquired about the source of the data and was informed that the
employee data was determined by taking a list of employees, providing the
employee data to OPM to see if they have record of a background
investigation, and then manually going through employee’s Official Personnel
Files (OPF) to see if there is record of an investigation. The process of going
through the OPFs has been an ongoing effort since 2006, whenever OHR has
had additional resources to utilize for this task. Currently, an OIT contractor
is performing this work. With regard to the contractor data, OHR was not
able to definitively identify how the numbers were derived and indicated that
the contractor data is more of a problem than the employee data as the
Commission does not have a centralized database of all contractors.
Further, in October 2007, OMB provided updated HSPD 12 reporting
requirements for the quarterly reporting period beginning December 1, 2007.
OMB now requires that agencies report how many background investigations
are in progress and have been completed in addition to how many employees,
contractors, and others (e.g., non-paid students) need the minimum
background investigation. The Commission did not provide the additional
information in its December 1, 2007 report to OMB and it is questionable
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 17


whether accurate data exists to be able to provide this information. Without
reliable data, the Commission cannot assess the status of their compliance
with HSPD-12 requirements and will not be able to successfully implement
Part 2 of FIPS 201-1 (issuance of new identity credentials to all existing and
new employees and contractors).


Recommendation H

OHR should notify OMB of any reported data that cannot be supported and
develop a methodology and system to capture the required HSPD 12 data for
quarterly reporting to OMB.


OTHER MATTERS
The following matter, while outside the scope of our review, came to our
attention during the course of the inspection and requires OHR’s urgent
management attention to ensure the Commission’s successful
implementation of HSPD 12.
OMB Memorandum 07-06 requires that new identity cards replace the
standard employee flash-card badges by October 27, 2008. The credentials
which include biometric information such as fingerprints will provide a
common identification standard to allow employees and contractors to access
federal buildings and computer networks.
In order for agencies to begin issuing the new credentials, they must develop
and document a new credentialing system. FIPS 201, Part 2 suggests a role-
based model. The role-based model assigns identity-proofing responsibilities
to individuals, based on the roles and functions they perform. This requires
the Commission to assign roles to various individuals and implement
training for these roles. The system provides safeguards to ensure that the
same person cannot authorize and issue an identity card.
Per discussion with OIT staff members, OHR was asked by OIT to designate
individuals (as well as backups) to fill an adjudicator 6 and sponsor role. The
adjudicator would certify that an individual’s FBI fingerprint check results
have been returned so that an interim badge can be issued, as well as later
certifying that a NACI or better has been completed, so that an interim badge
can be electronically tagged properly as finalized. For existing hires with a
NACI or better on file, a final badge could be issued. Persons designated to
fill the adjudicator role must meet minimum standards, including being able
to evaluate whether a PIV application is satisfactory and apply specific
6
  An individual that reviews the OPM background investigation results and makes a favorable or unfavorable
placement determination based on relevant guidance.
____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 18


processes to an unsatisfactory application, have training on agency processes
and procedures for adjudicating an unsatisfactory PIV application, and have
successfully completed a training module on the roles and responsibilities of
the position.
The sponsor would prevent a single person from authorizing issuance of an
identity credential. Both the sponsor and adjudicator must agree that an
individual should be issued a card. For new hires, the sponsor must key in
name, social security number, an email address, and citizenship information
to start the issuance process, then the adjudicator must validate that
acceptable background investigation results have been obtained.
As of February 2008, OHR had designated two individuals to perform the
adjudication role, however, one of those individuals has since resigned and
the other individual had not yet taken the required computer based training.
Additionally, no sponsors had been designated by OHR. Without the
required designations, the Commission cannot begin to issue new credentials,
which greatly increases the likelihood that it will not be able to meet the
required October 2008 deadline to have smart card credentials in place.
We are concerned that OHR is not providing the support necessary to ensure
the Commission’s success in implementing the new HSPD credentialing
system and may not have other required systems in place to successfully
fulfill its roles and responsibilities under FIPS 201-1, Part 2.


Recommendation I
OHR should review the new credentialing system requirements and
coordinate with OIT and the Office of Physical Security to ensure that it is
fulfilling its required roles and responsibilities and has appropriate systems
and procedures in place to capture, share, and store required data in
accordance with FIPS 201-1, Part 2.



DISCUSSION OF MANAGEMENT COMMENTS
The Office of Human Resources concurred with all recommendations in the
report. Their formal written response is included as Appendix 1.




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 19


                                                                                          APPENDIX 1

                            MANAGEMENT’S COMMENTS




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                          Page 20


                        APPENDIX 1

MANAGEMENT’S COMMENTS
                                                                                               Page 21


                                                                                          APPENDIX 1
                                MANAGEMENT’S COMMENTS




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 22


                                                                                          APPENDIX 2

                         LIST OF RECOMMENDATIONS

Recommendation A

We recommend that OHR develop detailed operating procedures (or a
personnel security/suitability handbook that is maintained internally) for the
Program and circulate these procedures for clearance by June 30, 2008.

Recommendation B

We recommend that OHR develop (with the assistance of OIT) or acquire a
case management tracking system with the capability to track and document
internal workflow processes, produce reports useful for managing the
program, and report data to outside parties as necessary. OHR should
specifically dedicate resources to this effort.

Recommendation C

OHR should evaluate and restructure staff resources assigned to PSB to
ensure that all essential functions are performed in an effective and timely
manner. OHR should also recruit additional skilled staff and ensure that all
staff are adequately trained to perform their jobs successfully. Further, OHR
should consider recruiting additional temporary staff to assist with the
backlog of background investigations.

Recommendation D

OHR should obtain secure storage for personnel security files and a
workspace conducive for personnel security type work.

Recommendation E

OHR should ensure that all personnel security specialists are properly
trained in the use of e-QIP and are effectively utilizing e-QIP by uploading
and transmitting all security documents (with the exception of paper
fingerprint cards) to OPM.




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
                                                                                               Page 23


Recommendation F

PSB should revise its current procedures to ensure: (1) interim clearances are
granted after an OPM investigation is initiated and the FBI fingerprint
results are received, reviewed, and determined to be acceptable; (2) all OPM
investigation results (preliminary and final) are promptly reviewed, issues
timely resolved, and appropriate action taken to revoke interim clearances,
as appropriate; and (3) the Office of Physical Security is promptly notified of
all interim clearances, the notification states that an identification badge
should be issued based on an interim clearance, and the applicable COTR
and/or Administrative contact is copied.

Recommendation G

OHR should develop milestones and a methodology for completing the
minimum required background investigations for existing contractors and
employees and devote appropriate resources to the effort. OHR should also
communicate those milestones to the Office of Physical Security.

Recommendation H

OHR should notify OMB of any reported data that cannot be supported and
develop a methodology and system to capture the required HSPD 12 data for
quarterly reporting to OMB.


Recommendation I
OHR should review the new credentialing system requirements and
coordinate with OIT and the Office of Physical Security to ensure that it is
fulfilling its required roles and responsibilities and has appropriate systems
and procedures in place to capture, share, and store required data in
accordance with FIPS 201-1, Part 2.




____________________________________________________________________________________________________________
INSPECTION OF BACKGROUND INVESTIGATIONS                                          MARCH 28, 2008
INSPECTION 434
